    AUDIT REPORT

U.S. Fish and Wildlife Service
  Federal Assistance Grants
     Administered by the
    State of New Mexico,
Department of Game and Fish,
 from July 1, 2002, through
        June 30, 2004




   Report No. R-GR-FWS-0001-2005
                SEPTEMBER 2005
                 United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                        External Audits
                              12030 Sunrise Valley Drive, Suite 230
                                     Reston, Virginia 20191
                                                                                September 2, 2005

                                    AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Andrew Fedak
           Director of External Audits

Subject:   Final Audit Report on the U.S. Fish and Wildlife Service Federal Assistance
           Grants Administered by the State of New Mexico, Department of Game and Fish
           from July 1, 2002, through June 30, 2004 (No. R-GR-FWS-0001-2005)

        This report presents the results of our audit of costs incurred and claimed by the State of
New Mexico, Department of Game and Fish (Department), under Federal Assistance grants from
the U.S. Fish and Wildlife Service (FWS). The audit included total outlays of approximately
$21 million on FWS grants that were open during the State’s fiscal years ended June 30, 2003
and 2004 (see Appendix 1). The audit also covered the Department’s compliance with
applicable laws and regulations and FWS guidelines, including those related to the collection and
use of hunting and fishing license revenue and the reporting of program income.

       We found that the Department needs to make improvements in its asset management
processes. We also identified overcharges for in-kind contributions, which the Department
corrected prior to the completion of our audit.

       FWS Region 2 provided a response to a draft of this report dated July 25, 2005, which
included a copy of the Department’s July 21, 2005 response to FWS. FWS concurred with audit
findings and recommendations. We summarized the FWS and Department responses after the
recommendations, and added our comments regarding the responses. The status of the
recommendations is summarized in Appendix 3.

        In accordance with the Departmental Manual (361 DM 1), please provide us with your
written response to the recommendations included in this report by December 1, 2005. Your
response should include the information requested in Appendix 3.

       If you have any questions regarding this report, please contact me or Mr. Owen
Nicholson, Audit Team Leader, at (703) 487-5345.

cc:   Regional Director, Region 2, U.S. Fish and Wildlife Service
                                              Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 1 authorize the U.S. Fish and Wildlife Service (FWS) to provide Federal Assistance
grants to states to enhance their sport fish and wildlife programs. The Acts provide for FWS to
reimburse the states up to 75 percent of the eligible costs incurred under the grants. They also
specify that state hunting and fishing license revenues cannot be used for any purpose other than
the administration of the state’s fish and game agencies.

Objective
The objectives of our audit were to determine whether costs incurred and claimed under Federal
Assistance grants to the State of New Mexico Department of Game and Fish (Department) were
in accordance with the Acts and related regulations, FWS guidelines, and the grant agreements;
whether State hunting and fishing license revenues were used only for fish and wildlife
programs; and whether program income was reported and used in accordance with Federal
regulations.

Scope
We conducted our audit at the Department’s headquarters in Santa Fe, New Mexico. The audit
work included total recorded outlays of approximately $21 million on 41 FWS grants that were
open during the State’s fiscal years (SFYs) 2003 and 2004 ended June 30, 2003 and 2004 (see
Appendix 1). As part of our audit, we also visited three area offices, two fish hatcheries, a
wildlife management area, a waterfowl management area, a lake, a warehouse, and a boat access
facility (see Appendix 2). This audit supplements, and does not supplant, the audits required by
the Single Audit Act of 1984, as amended and the Office of Management and Budget Circular A-
133. The audit included steps to determine whether:

      ¾ The Department’s accounting system was adequate to account for grant receipts and
        disbursements.

      ¾ The direct and indirect costs incurred and the in-kind contributions claimed by the
        grantee under Federal Assistance grants were necessary and reasonable, allocable,
        accurate, and eligible for reimbursement.

      ¾ The hunting and fishing license certifications were based on official State of New Mexico

1
    As amended 16 U.S.C. § 669 and 16 U.S.C. § 777, respectively



                                                         2
     records, and procedures used to prepare those certifications were adequate for eliminating
     duplicate license holders.
   ¾ The Department had an adequate system to account for and report license fee revenues,
     and those revenues were used only for the Department’s fish and wildlife programs.

   ¾ Controls over real property and equipment acquired with Federal Assistance funds or
     license revenues were adequate to ensure compliance with program requirements.

   ¾ The Department complied with selected grant agreement provisions and requirements of
     the Acts.

   ¾ The State of New Mexico enacted assent legislation in compliance with the Acts.

Methodology
We performed our audit in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States. Accordingly, we included such tests of records and
other auditing procedures that we considered necessary under the circumstances. Our tests
included examining the evidence supporting selected expenditures charged to the grants by the
Department, interviewing Department employees to ensure that personnel costs charged to the
grants were supportable, and determining whether the Department used hunting and fishing
license revenues only for fish and wildlife program purposes. To the extent possible, we relied
on the work of the State of New Mexico’s Single Auditors in order to avoid duplication of audit
effort. We did not evaluate the economy, efficiency or effectiveness of the Department’s
operations.

We reviewed the accounting systems for labor and license fees in order to identify the internal
controls over transactions recorded in those systems and to test the operation and reliability of
those controls. We also reviewed transactions related to purchases, other direct costs,
drawdowns of reimbursements, in-kind contributions, program income, and equipment/assets.
Based on the results of our initial assessments, we assigned a level of risk to these systems and
based on the level of risk assigned, we selected a judgmental sample of transactions for
substantive testing. We did not project the results of the substantive tests to the total population
of recorded transactions.

Prior Audit Coverage
On August 1, 2002, we issued advisory report (No. 2002-E-0006), “Final Advisory Report on
Costs Claimed by the State of New Mexico, Department of Game and Fish, Under Federal Aid
Grants from the U.S. Fish and Wildlife Service from July 1, 1996 to June 30, 1998.” In addition,
the State Auditor issued single audit reports on the Department for SFYs 2003 and 2004.

We followed up on all significant findings to determine whether they had been resolved. We
determined that all findings in the Single Audits and the audit of Federal Aid Grants had been
resolved, but the Department’s asset management processes still need improvement (see Asset
Management).


                                                  3
                                           Results of Audit
We found that:

    ¾ The Department’s accounting system was generally adequate to account for grant receipts
      and disbursements.
    ¾ The direct and indirect costs claimed were necessary and reasonable, allocable, accurate,
      and eligible for reimbursement under the Federal Assistance grant agreements with FWS.
    ¾ Hunting and fishing license certifications were based on official State of New Mexico
      records, and procedures used to prepare those certifications were adequate for eliminating
      duplicate license holders.
    ¾ The Department had an adequate system to account for and report license fee revenues
      and disbursements, and the revenues were used only for the Department’s fish and
      wildlife programs.
    ¾ The State had enacted adequate assent legislation.

However, we found that the Department needs to improve its asset management processes.
We also identified overcharges for in-kind contributions, which the Department corrected prior
to the completion of our audit.

Asset Management
Using the Department’s inventory listing generated from the database for fixed assets2
maintained by the Department’s Administrative Services Division, we inspected property at
seven sites 3 and the Department headquarters in Santa Fe. With the assistance of the staff at
each location, we inspected a sample of computer-related items, vehicles, and equipment. We
found that some items could not be located, not all items were tagged, and the inventory listing
contained inaccurate and incomplete data. We also compared real property entries in the
inventory listing to records maintained by the Wildlife Lands Specialist and found some
discrepancies.

According to the Code of Federal Regulations (50 CFR § 80.19), the State must maintain current
and complete property records in accordance with requirements in the Service Manual and OMB
Circular A–102. In addition, the Department’s Fixed Asset Manual requires that each fixed asset
be assigned to a specific location and responsibility to a specific person, and be tagged at the
time it is acquired with a unique number. Information such as tag number, description of the
item, date of purchase, Federal Assistance number, and assignment location is required to be
entered in the Department’s fixed asset inventory database. Furthermore, a physical inventory of
all fixed assets must be performed at the end of each fiscal year, and the inventory results must


2
  Fixed assets are defined in the Fixed Assets Manual as real property, buildings, movable chattel (goods or
property), or equipment which has a value greater than $1,000; is expected to be used or held beyond the fiscal year
in which it was acquired; is not consumed in or by its use; and is acquired by purchase, trade, donation, lease-
purchase agreement, or construction.
3
  Area Offices at Raton, Albuquerque, Las Cruces; Santa Fe warehouse; Lisboa and Red River Hatcheries; and
Bernardo Waterfowl Management Area.
                                                         4
be reconciled with the inventory list to assure that fixed assets are adequately safeguarded and
accurately reported.

The inventory records were inaccurate and incomplete because they were not updated based on
the results of the physical inventories or other records maintained for property acquired with
Federal Assistance funds or license revenues.

The Department provided a fixed asset inventory listing containing 2,576 items valued at
$69.4 million including land, capital improvements, computer-related items, vehicles, and
equipment. We selected a judgmental sample of 218 items valued at $1.7 million from a
universe of 1,683 computer-related items, vehicles, and equipment valued at $12.6 million. We
inspected the sample items to verify the items existed, were properly tagged, and related data in
the inventory listing was accurate (land and capital improvements were excluded from these
inspections).

Of the items sampled, we could not find five items valued at $11,611 at the location indicated in
the inventory listing; 55 items valued at $581,068 were not tagged; and the inventory list had
incorrect data for 75 items valued at $465,190. This incorrect data included items listed on the
inventory that had been turned in to the Santa Fe headquarters, items that had been transferred to
other locations or individuals, and items that had an incorrect Federal Assistance number.

In addition, we compared land data in the fixed asset inventory listing to land records maintained
by the Department’s Wildlife Lands Specialist. We found differences in the acquisition cost and
dates acquired, and instances where the Federal Assistance number was incorrect or not shown
on the inventory listing.

       Recommendations
       We recommend that FWS ensure that the Department:

       1. Accurately updates the data in the fixed asset inventory database for computer-related
          items, vehicles, and equipment based on the results of a current physical inventory.

       2. Reconciles land entries in the fixed asset database with the land records maintained
          by the Wildlife Lands Specialist.

       Department Response

       The Department concurred with the finding and recommendations, and established
       guidelines and procedures for conducting a physical inventory as well as a plan and
       schedule for implementation.

       FWS Response

       FWS stated that it concurred with the finding and recommendations, and will consider the
       corrective actions for Asset Management proposed by the Department during preparation
       of the corrective action plan.

                                                 5
        OIG Comments

        Although FWS concurred with the finding and recommendations, it stated that it will
        consider the Department’s proposed actions during preparation of the corrective action
        plan. Therefore, additional information is needed on the actions taken or planned to
        resolve the finding and implement the recommendations. This information should be
        provided in the corrective action plan.

Other Matters – In-Kind Contributions

We reviewed supporting documentation for the Department’s in-kind contributions for the two
Aquatic Education grants (F-57-E-14 and 15) and found that some volunteer participant time was
not adequately supported or was overstated, and some contribution amounts were miscalculated.

We selected a sample of in-kind contributions for review and found some problems with the
volunteer hours claimed and associated calculations, and support for some hours could not be
found. As a result, we reviewed support documentation for all in-kind contributions for the two
Aquatic Education Program grants and found the same discrepancies. We calculated the
supported in-kind contributions as follows:

                                     Per SF-269                   Per Audit
              Grant No.         In-Kind Contributions       In-Kind Contributions
              F-57-E-14                $44,439                    $28,540
              F-57-E-15                 49,282                     39,407
              Total                    $93,721                    $67,947

According to the Code of Federal Regulations [43 CFR § 12.64 (b)(6)], records for third party in-
kind contributions must be verifiable from the State’s records and should be supported, to the
extent feasible, by the same methods used to support regular personnel costs.

Volunteer instructor hours claimed and the calculations for in-kind contributions were not
adequately reviewed and verified for accuracy, and support for some hours was not properly
maintained.

The Department added in-kind contributions for each grant to state outlays to calculate the
amount of federal share drawn down. We calculated the difference between the federal share
supported by state outlays and in-kind contributions and the total federal share drawn down. The
$19,330 ($11,924 + $7,406) difference is the questioned amount of federal share that results
from the unsupported in-kind costs for each grant, as shown in the following table:

                                 F-57-E-14                                  F-57-E-15
                   Per SF 269     Per OIG      Difference    Per SF 269       Per OIG      Difference
 Direct Costs        $174,196       $174,196                    $172,990        $172,990
 Indirect Costs       $22,696        $22,696                      $22,827        $22,827
 In-kind              $44,439        $28,540                      $49,282        $39,407
    Total            $241,331       $225,432                    $245,099        $235,224
 Drawdown (75%)      $180,999      $169,075      $11,924        $183,824       $176,418       $7,406

                                                   6
The Department concurred with our finding and offset the $19,330 of questioned costs against
grant No F-57-E-16 prior to our completing fieldwork. The Department also established
procedures to review volunteer instructor hours and calculations for in-kind contributions
claimed and properly maintain support for those hours. Therefore, no further action is necessary.




                                               7
                                             Appendix 1
 NEW MEXICO DEPARTMENT GAME AND FISH
FINANCIAL SUMMARY OF REVIEW COVERAGE
       July 1, 2002 through June 30, 2004

     Grant        Grant         Total
    Number       Amount        Outlays
 F-55-DL-17        $447,500      $269,229
 F-55-DL-18          580,000       517,331
 F-55-DL-19          151,500             0
 F-57-E-14           333,507       241,332
 F-57-E-15           319,412       245,099
 F-61-O-5             81,520        32,760
 F-66-M-1          2,032,000     1,935,244
 F-66-M-2          2,540,000     2,787,617
 F-67-R-1            105,000        83,196
 F-67-R-2             95,000        63,964
 F-68-R-1            338,000       334,151
 F-68-R-2            370,000       356,759
 F-69-R-1            400,000       377,734
 F-69-R-2            350,000       385,642
 F-70-M-1            535,000       507,412
 F-70-M-2            669,000       702,340
 F-71-B-1          3,000,000       422,709
 FW-14-C-61          181,500       198,355
 FW-14-C-62          213,100        41,930
 FW-14-C-63          189,000             0
 FW-17-R-30          464,000       370,904
 FW-17-RD-31         457,200       474,436
 FW-24-TG-17         519,136       483,289
 FW-24-TG-18         537,852       362,672
 FW-26-DL-11         593,852       545,179
 FW-26-DL-12         749,677       716,000
 FW-32-O-3           100,000        32,490
 W-93-R-44         3,373,690     2,839,563
 W-93-R-45         2,942,000     2,887,018
 W-99-D-43           588,347       456,202
 W-99-D-44           619,241       671,454
 W-120-S-32          319,007       352,465
 W-120-S-33          521,779       485,482
 W-137-R-3            49,486        15,385
 W-137-R-4            32,561        23,419
 W-138-R-1           185,475       139,634
 W-138-R-2           185,500       188,747
 W-139-R-1           158,000       157,040
 W-139-R-2           169,000       172,829
 W-140-R-1           102,000        41,650
 W-140-R-2            30,000        29,155
                 $25,628,842   $20,947,817




                     8
                                                Appendix 2

NEW MEXCIO DEPARTMENT OF GAME AND FISH
             SITES VISITED

                   Area Offices
                   Albuquerque
                    Las Cruces
                       Raton

                    Hatcheries
                     Lisboa
                     Red River


                    Other Sites
        Bernardo Waterfowl Management Area
       Colin Neblett Wildlife Management Area
                  Eagle Nest Lake
          Elephant Butte Lake Boat Ramps
                Santa Fe Warehouse




                         9
                                                                     Appendix 3


          NEW MEXICO DEPARTMENT OF GAME AND FISH
                 STATUS OF AUDIT FINDINGS
                  AND RECOMMENDATIONS


Recommendations           Status                     Action Required
1 and 2           Management Concurs;      Provide a corrective action plan that
                  Additional Information   identifies the actions taken or planned to
                  Needed                   resolve the findings and implement the
                                           recommendations, as well as the basis
                                           for any disagreement with the
                                           recommendations. The plan should also
                                           include the target date and the official
                                           responsible for implementation of each
                                           recommendation. The unimplemented
                                           recommendations remaining at the end
                                           of 90 days (after December 2, 2005)
                                           will be referred to the Assistant
                                           Secretary for Policy, Management and
                                           Budget for resolution and/or tracking of
                                           implementation.




                                   10
